HHS/OIG-Audit--"Superfund Financial Activities of the Agency for Toxic Substances and Disease Registry for Fiscal Year 1990, (A-15-91-00002)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Superfund Financial Activities of the Agency for Toxic Substances and
Disease Registry for Fiscal Year 1990," (A-15-91-00002)
July 6, 1992
Complete Text of Report is available in PDF format
(498 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report provides the results of our audit of the Agency for
Toxic Substances and Disease Registry's (ATSDR) Superfund financial activities
for Fiscal Year (FY) 1990. Through interagency agreements with the Environmental
Protection Agency, ATSDR obligated $45.2 million and disbursed $43.9 million
in Superfund resources during FY 1990. This report concludes that, in general,
ATSDR administered the fund in accordance with requirements. Superfund transactions
for FY 1990 generally were properly and accurately recorded and reported by
ATSDR. Supporting documentation showed that the transactions were for valid
Superfund activities.
In addition to auditing ATSDR's FY 1990 disbursements, we analyzed the conditions
cited in a recently issued General Accounting Office (GAO) report relating to
ATSDR's health assessment program. We determined the deficiencies were of such
magnitude that the Department of Health and Human Services should report them
as a material internal control weakness; that ATSDR had not made provision for
all of its program activities for internal control reviews under the Federal
Managers' Financial Integrity Act; and that ATSDR had not developed and implemented
a detailed corrective action plan to ensure the expeditious implementation of
the GAO's recommendations.